CERTIFICATE OF SERVICE
No.

SHAQUERE MYLESHIA GRAY, Co-Administratrix of the Estate of Gregory
Tremaine Miller; HANNAH LASHA HOZE, Co-Administratrix of the Estate of
Gregory Tremaine Miller,

Petitioners,
v.

ALABAMA GREAT SOUTHERN RAILROAD COMPANY,
Respondent.

I, Charles Edward Sorey, II, counsel for Petitioners, hereby certify that on
this 14‘ day of December, 2020, I caused a copy of Petitioners’ Writ of Certiorari
to be served by electronic mail and USPS prepaid mail on the following counsel:

Romney H. Entrekin
Grayson Lacey

Benjamin B. Morgan
Burson Entrekin Orr Mitchell
& Lacey

PO Box 1289

Laurel, MS 39441
entrekin@beolaw.com
lacey@beolaw.com
morgan@beolaw.com
Attorneys for Respondent,
Alabama Great Southern
Railroad Company

I further certify that all parties required to be served have been served.

ES

Charl ~ Sorey, II

Chris Christy Law Firm
1000 Highland Colony Pkwy
Ste. 5203

Ridgeland, MS 39157
